hmibit
a

S^^bistnch (jmrt Eksfem b/sfazf')
---- &P Ujuis/MA

fHntteb States Court of gfoueate
for tfje Jfiftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
June 7, 2021

No. 19-30922

Lyle W. Cayce
Clerk

Jarvis Brown
Plaintiff—Appellant,
versus
Orleans Parish Sheriff Office; Marlin N. Gusman,
Sheriff■ Orleans Parish District Attorney’s Office; Leon
A. Cannizzaro, Jr., District Attorney', New Orleans Police
Department; Ronald Serpas, New Orleans Police Department Chief-,
H. Cantrell, Orleans Parish Criminal Court Magistrate Judge-, et al.,
Defendants—Appellees.

\

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV-12432

Before Jones, Costa, and Wilson, Circuit Judges.
Per Curiam:*
Jarvis Brown, Louisiana prisoner # 710737, has filed a motion for leave
to proceed in forma pauperis (IFP) on appeal from the district court’s

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 19-30922

dismissal of his pro se 42 U.S.C. § 1983 complaint as frivolous. By moving
istrict-court V
-to
certification that his appeal is not taken in good faith. See Baugh v. Taylor,
117 F.3d 197, 202 (5th Cir. 1997). Our inquiry “is limited to whether the
appeal involves legal points arguable on their merits (and therefore not
frivolous).” Howard v. King, 707 F.2d 215, 220 (5th Cir. 1983) (internal
quotation marks and citations omitted).
With the benefit of liberal construction, Brown’s arguments that he is
financially eligible, that he is illegally imprisoned, and that he is being denied
access to the courts in this appeal fail to demonstrate a nonfrivolous issue for
appeal with respect to the district court’s dismissal of his complaint and
denial of injunctive relief pursuant to Heck v. Humphrey, 512 U.S. 477 (1994).
See Clarke v. Stalder, 154 F.3d 186,189-91 (5th Cir. 1998) (en banc); Hamilton
v. Lyons, 74 F.3d 99,102 (5th Cir. 1996). He has abandoned any claims raised
in objections to the report and recommendations. See Yohey v. Collins, 985
F.2d 222,224-25 (5th Cir. 1993).
Accordingly, Brown has failed to show that his appeal involves any
arguably meritorious issues. See Howard, 707 F.2d at 220-21. His IFP motion
is therefore DENIED and the appeal is DISMISSED as frivolous. See
Baugh, H7 F.3d at 202 & n.24; 5th Cir. R. 42.2.
This dismissal and the dismissal of Brown’s complaint in the district
court count as strikes under 28 U.S.C. § 1915(g). SeeAdepegba v. Hammons,
103 F.3d 383,388 (5th Cir. 1996), abrogated in part on othergrounds by Coleman
v. Tollefson, 575 U.S. 532, 537 (2015). Brown is WARNED that if he
accumulates three strikes, he will not be able to proceed IFP in any civil action
or appeal filed while he is incarcerated or detained in any facility unless he is
under imminent danger of serious physical injury. See § 1915(g).

2

Additional material
from this filing is
available in the
Clerk's Office.

Case 2:19-cv-12432-SSV Document 9 Filed 10/31/19 Page lot 5

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION

JARVIS BROWN

NO. 19-12432

VERSUS
ORLEANS PARISH SHERIFF’S
OFFICE, ETAL.

SECTION “R”(i)

ORDER AND REASONS
Before the Court is Jarvis Brown’s section 1983 complaint1 and motion
for a preliminary injunction and restraining order.2 The Court has reviewed
de novo the complaint/ the record, the applicable law, the Magistrate
Judge’s Report and Recommendation/ and the petitioner’s objections.s
Because the Magistrate Judge correctly determined that Brown’s complaint
is frivolous, the complaint is dismissed. And because the plaintiff offers no
legal basis for a temporary restraining order or preliminary injunction, his
motion is likewise dismissed.

3

4
5

R.
R.
R.
R.
R.

Doc. 4.
Doc. 8.
Doc. 4.
Doc. 6.
Doc. 7.

Case 2:19-cv-12432-SSV Document 9 Filed 10/31/19 Page 2 of 5

In 2016, Jarvis was found guilty of three counts of armed robbery, one
count of possession of marijuana, and one count of access device fraud. See
State v. Brown, 219 So. 3d 518, 523 (La. App. 4 Cir. 2017), writ denied, 243
So. 3d 1061 (La. 2018). He was sentenced to sixty years’ imprisonment. Id.
In September 2019, Jarvis filed this section 1983 action against the Orleans
Parish Sheriffs Office and numerous other state officials, requesting
damages for wrongful imprisonment.6 Jarvis states in his complaint that he
believes he is wrongfully imprisoned, and seeks release and damages in the
amount of $400 billion.7
Because the plaintiff is incarcerated, his complaint is subject to the
screening provisions of 28 U.S.C. § 1915A, which require that the Court
review "as soon as practicable after docketing, a complaint in a civil action in
which a prisoner seeks redress from a governmental entity or officer or
employee of a governmental entity.” 28 U.S.C. § i9isA(a). The Court should
dismiss the complaint if it “is frivolous, malicious, or fails to state a claim
upon which relief may be granted.” Id. at 28 U.S.C. § i9i5A(b)(i). A
complaint is frivolous if it “lacks an arguable basis in law or fact.” Reeves v.
Collins, 27 F.3d 174, 176 (5th Cir. 1994). The Magistrate Judge correctly

R. Doc. 4.
Id. at 7.
2

Case 2:19-cv-12432-SSV Document 9 Filed 10/31/19 Page 3 of 5

determined that in addition to a “myriad [of] other obstacles”,8 the plaintiffs
action lacks an arguable basis in law because Brown’s suit it is barred by Heck
v. Humphrey, 512 U.S. 477 (1994). In Heck, the Supreme Court held that
in order to recover damages for allegedly
unconstitutional conviction or imprisonment, a
§ 1983 plaintiff must prove that the conviction or
sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by a
state tribunal authorized to make such a
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus, 28 U.S.C.
§ 2254.

512 U.S. at 486-87. In his objections, the plaintiff does not respond to the
Magistrate Judge’s analysis of Heck. Instead, he only restates his claims and
makes new allegations regarding correctional officer misconduct that were
not included in his complaint. Because Heck bars the plaintiffs suit, it must
be dismissed.
The plaintiff also filed a motion that he stylized as an “order to show
cause for a preliminary injunction and temporary restraining order. ”9 This
filing largely restates the plaintiff’s arguments that he is wrongfully
imprisoned. A temporary restraining order is an “extraordinary remedy.”
See Miss. Power & Light Co., 760 F.2d 618, 621 (5th Cir. 1985). Because of

8

R. Doc. 6 at 2.
R. Doc. 8.
3

Case 2:19-cv-12432-SSV Document 9 Filed 10/31/19 Page 4 of 5

this, a temporary restraining order or preliminary injunction will be granted
only where “(l) there is a substantial likelihood that the movant will prevail
on the merits; (2) there is a substantial threat that irreparable harm will
result if the injunction is not granted; (3) the threatened injury outweighs
the threatened harm to the defendant; and (4) the granting of the
preliminary injunction will not disserve public interest.” Clark v. Prichard,
812 F.2d 991, 993 (5th Cir. 1987).
Here, the plaintiff has not attempted to address these requirements,
and in any event fails to meet them. For example, the plaintiff has not shown
that there is a substantial likelihood he would succeed on the merits, as a
motion for a temporary restraining order or injunction is not a proper vehicle
to challenge a state court conviction. Nor has the plaintiff made a showing
or irreparable harm. And because the plaintiff must prove a required
element, the court must deny his motion. Clark at 993 (“The party seeking
such relief must satisfy a cumulative burden of proving each of the four
elements enumerated before a temporary restraining order or preliminary
injunction can be granted.”).
For the reasons in the Report and Recommendation, the plaintiffs
complaint is frivolous. Accordingly, IT IS ORDERED that the plaintiffs
complaint is DISMISSED WITH PREJUDICE. Additionally, the plaintiffs
4

Case 2:19-cv-12432-SSV Document 9 Filed 10/31/19 Page 5 of 5

motion for a preliminary injunction and temporary restraining order is
DENIED WITH PREJUDICE.

New Orleans, Louisiana, this 31st day of October, 2019.

^ SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

5

Case 2:19-cv-12432-SSV Document6 Filed 09/27/19 Page lot4

UNITED STATES DISTRICT COURT
EASTERN DISTRICT UF LOUISIANA'
CIVIL ACTION

JARVIS BROWN

NO. 19-12432

VERSUS
ORLEANS POLICE DEPT.
CHIEF R. SERPAS, ET AL.

SECTION: “R”(l)

REPORT AND RECOMMENDATION
Plaintiff, Jarvis Brown, a state prisoner, filed this federal civil rights action against
numerous law enforcement officials, parish prosecutors, public defenders and appointed counsel,
state court judges and justices, and penal officials. In this lawsuit, he claims that he has been
illegally prosecuted, convicted, and imprisoned.
Plaintiff filed this federal civil action in forma pauperis. Concerning such actions, federal
law provides: “Notwithstanding any filing fee, or any portion thereof, that may have been paid,
the court shall dismiss the case at any time if the court determines that... the action ... is frivolous
...” 28U.S.C. § 1915(e)(2)(B)(i).
In addition, because plaintiff is incarcerated, he is also subject to the screening provisions
of 28 U.S.C. § 1915A.

That statute mandates that federal courts “review, before docketing, if

feasible or, in any event, as soon as practicable after docketing, a complaint in a civil action in
which a prisoner seeks redress from a governmental entity or officer or employee of a
governmental entity.” 28 U.S.C. § 1915A(a). Regarding such lawsuits, federal law similarly
requires: “On review, the court shall identify cognizable claims or dismiss the complaint, or any
portion of the complaint, if the complaint... is frivolous ....” 28 U.S.C. § 1915A(b)(l).

Case 2:19-cv-12432-SSV Document 6 Filed 09/27/19 Page 2 of 4

A complaint is frivolous “if it lacks an arguable basis in law or fact.” Reeves v. Collins.
27 F.3d 174, 176 (5th Cir. 1994). In determining whether a claim is frivolous, the Court has “not
only the authority to dismiss a claim based on an indisputably meritless legal theory, but also the
unusual power to pierce the veil of the complaint’s factual allegations and dismiss those claims
whose factual contentions are clearly baseless.” Neitzke v. Williams. 490 U.S. 319, 327 (1989);
Macias v. Raul A. (Unknown). Badge No. 153. 23 F.3d 94, 97 (5th Cir. 1994).
Here, even if plaintiff could somehow overcome the myriad other obstacles which would
appear to prevent him from obtaining relief in this lawsuit,1 there is one he clearly cannot: Heck
v. Humphrey. 512 U.S. 477 (1994). In Heck, the United States Supreme Court stated:
We hold that, in order to recover damages for allegedly unconstitutional
conviction or imprisonment, or for other harm caused by actions whose
unlawfulness would render a conviction or sentence invalid, a § 1983 plaintiff must
prove that the conviction or sentence has been reversed on direct appeal, expunged
by executive order, declared invalid by a state tribunal authorized to make such
determination, or called into question by a federal court’s issuance of a writ of
habeas corpus, 28 U.S.C. § 2254. A claim for damages bearing that relationship to
1 For example, it appears that many of the defendants would be entitled to immunity: the judges and justices would
presumably be protected by their absolute judicial immunity, see, e.g.. Bradley v. Fisher. 80 U.S. (13 Wall.) 335,351
(1871) (“[Jjudges of courts of superior or general jurisdiction are not liable to civil actions for their judicial acts, even
when such acts are in excess of their jurisdiction, and are alleged to have been done maliciously or corruptly.”); the
prosecutors by their prosecutorial immunity, see, e.g.. Bovd v. Bigeers. 31 F.3d 279, 285 (5th Cir. 1994)
(“Prosecutorial immunity applies to the prosecutor’s actions in initiating the prosecution and in carrying the case
through the judicial process.”); and any state officials sued in their official capacities for monetary damages by the
Eleventh Amendment, see, e.g.. Damond v. LeBlanc. 552 F. App’x 353, 354 (5th Cir. 2014) (“Official capacity
monetary damage claims against state actors are considered a suit against the state and barred by the Eleventh
Amendment.”). Further, to the extent that plaintiff is seeking relief under 42 U.S.C. § 1983, his claims against the
public defenders and appointed counsel fail because they are not state actors. See, e.g.. Polk Countv v. Dodson. 454
U.S. 312,325 (1981) (“[A] public defender does not act under color of state law when performing a lawyer’s traditional
functions as counsel to a defendant in a criminal proceeding.”); Mills v. Criminal District Court # 3. 837 F.2d 677,
679 (5th Cir. 1988) (“[Sjection 1983 claims require that the conduct complained of be done under color of law, and
private attorneys, even court-appointed attorneys, are not official state actors, and generally are not subject to suit
under section 1983.”). Lastly, even as to those individuals who would otherwise be proper defendants, plaintiffs
conclusory allegations do not suffice to state cognizable claims. Rather, when a plaintiff asserts individual-capacity
claims, he “must allege specific conduct giving rise to a constitutional violation. This standard requires more than
conclusional assertions: The plaintiff must allege specific facts giving rise to the constitutional claims.” Oliver v.
Scott. 276 F.3d 736, 741 (5th Cir. 2002) (citation omitted). When he asserts official-capacity claims, he must allege
that a policy or custom resulted in the violation of his rights, and he must identify that policy or custom. See, e.g..
Butler v. Wenpelman. 487 F. App’x 940,941 (5th Cir. 2012); Murray v. Town of Mansura. 76 F. App’x 547,549 (5th
Cir. 2003); Treece v. Louisiana. 74 F. App’x 315, 316 (5th Cir. 2003). Plaintiffs complaint does not comply with
those requirements.

2

Case 2:19-cv-12432-SSV Document 6 Filed 09/27/19 Page 3 of 4

a conviction or sentence that has not been so invalidated is not cognizable under §
F9'837
must consider whether a judgment in favor of the plaintiff would necessarily imply
the invalidity of his conviction or sentence; if it would, the complaint must be
dismissed unless the plaintiff can demonstrate that the conviction or sentence has
already been invalidated.
Heck. 512 U.S. at 486-87 (footnote omitted). Heck has since been extended also to bar claims for
declaratory and injunctive relief. See, e.g.. Walton v. Parish of LaSalle. 258 F. App’x 633, 63334 (5th Cir. 2007); Collins v. Ainsworth. 177 F. App’x 377, 379 (5th Cir. 2005); Shaw v. Harris,
116 F. App’x 499, 500 (5th Cir. 2004). Claims barred bv Heck are legally frivolous. See Hamilton
v. Lyons. 74 F.3d 99, 102 (5th Cir. 1996); see also Anderson v. Galveston County District Clerk,
91 F. App’x 925 (5th Cir. 2004); Kingerv v. Hale. 73 F. App’x 755 (5th Cir. 2003).
In 2016, plaintiff was convicted in the Orleans Parish Criminal District Court of three
counts of armed robbery, one count of possession of marijuana, and one count of access device
fraud. See State v. Brown. 219 So. 3d 518 (La. App. 4th Cir. 2017), writ denied. 243 So. 3d 1061
(La. 2018). In this lawsuit, he claims that he was illegally prosecuted, convicted, and imprisoned
with respect to those convictions. However, because those convictions have not been invalidated,
and because a judgment in plaintiffs favor on his claims would necessarily imply the invalidity of
those convictions, his claims should be dismissed with prejudice until such time as the Heck
conditions are met.2
Lastly, it is noted that Heck does not prevent plaintiff from challenging those convictions
in a federal habeas corpus proceeding brought pursuant to 28 U.S.C. § 2254. However, if he
wishes to seek habeas corpus relief, he should institute a separate civil action by filing a properly

2 See DeLeon v. City of Corpus Christi. 488 F.3d 649, 657 (5th Cir. 2007) (“A preferred order of dismissal in Heck
cases decrees, ‘Plaintiff[’]s claims are dismissed with prejudice to their being asserted again until the Heck conditions
are met.”’).

3

Case 2:19-cv-12432-SSV Document 6 Filed 09/27/19 Page 4 of 4

completed habeas corpus form. See Rules Governing Section 2254 Cases in the United States
District Courts, Rule 2.3
RECOMMENDATION
It is therefore RECOMMENDED that that plaintiffs federal civil rights claims be
dismissed with prejudice until such time as the Heck conditions are met.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United Services Auto. Ass’n,
79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).
New Orleans, Louisiana, this

26th

day of September, 2019.

r\jj**r*

JA^j[IS VAN MEERVELD
UNITED STATES MAGISTRATE JUDGE

3 Although a federal civil rights complaint can, in appropriate circumstances, be construed in part as a federal habeas
corpus petition, the undersigned finds that it would not be appropriate to do so in this instance. Plaintiff’s contention
that he has been wrongly convicted is asserted in a wholly conclusory manner with no specific allegations as to the
respect(s) in which his rights were violated in the state criminal proceedings. As such, he has not stated a cognizable
habeas claim. See, e.g.. Allen v. Vannov. 659 F. App’x 792, 809 (5th Cir. 2016) (“Conclusory arguments cannot
serve as a basis for habeas relief.”); Hudson v. Ouarterman. 273 F. App’x 331,343 (5th Cir. 2008) (“Mere conclusory
allegations are insufficient to raise a constitutional issue in a habeas proceeding.”). It would therefore be preferable
for him to file a formal habeas corpus petition on the proper form, setting forth his claims with particularity. However,
if he wishes to seek such relief, he is cautioned that he must comply with the statute of limitations, see 28 U.S.C. §
2244(d), and the requirement that he exhaust his remedies in the state courts, see 28 U.S.C. § 2254(b)(1).

4

Additional material
from this filing is
available in the
Clerk's Office.

